District of Columbia
Court of Steals
Nos. 20-CO-710 & 21-CO-170

P

L'' I
MW 17 2021

0

DISTRICT OF COLUMBIA
COURT OF APPEALS

RONALD E. TOST,
Appellant,
v.

1988 FEL 5913

UNITED STATES,
Appellee.
BEFORE:

Glickman and Deahl, Associate Judges, and Nebeker, Senior Judge.
JUDGMENT

On consideration of appellant’s motion for summary reversal, appellant’s
supplemental motion for summary reversal, appellee’s opposition and cross-motion
for summary affirmance, and the record on appeal, it is
ORDERED that appellant’s motions for summary reversal are denied. See
Watson v. United States, 73 A.3d 130, 131 (D.C. 2013). It is
FURTHER ORDERED that appellee’s motion for summary affirmance is
granted. See id. Appellant appeals from the trial court’s order denying his motion
for compassionate release, pursuant to D.C. Code § 24-403.04 (2020 Repl.), and
order denying reconsideration, arguing that the court wrongly determined that he
remained a danger to the community. D.C. Code § 24-403.04(a) (2020 Repl.)
permits the trial court to modify a sentence for an eligible defendant if it “determines
the defendant is not a danger to the safety of any other person or the community,
pursuant to the factors to be considered in 18 U.S.C. §§ 3142(g) and 3553(a) and
evidence of the defendant’s rehabilitation while incarcerated.” Appellant challenges
the trial court’s weighing of the factors, arguing that the trial court placed too much
weight on the nature and circumstances of his offenses. He was convicted of
multiple offenses based on four robberies of women over a three-month period,
including two involving rape and one resulting in a victim’s death. While the court
acknowledged appellant’s lack of a criminal history, generally good behavior while
incarcerated, and programming participation, it determined that the nature and
circumstances of these offenses including their randomness, as well as his age at the

i

SUPERIOR COURT OF THE DISTRICT OF COLUMBIA
CRIMINAL DIVISION

UNITED STATES OF AMERICA
Case No. 1988 FEL 005913
v.
Judge STEVEN M WELLNER
RONALD WEST,
Defendant.
ORDER DENYING COMPASSIONATE RELEASE
This case comes before the Court on Defendant’s motion for compassionate release, filed
July 30, 2020.1 For the reasons stated below, the Court denies the motion.
I.

Factual and Procedural History
The incidents underlying Defendant’s conviction occurred between March 30, 1988, and

May 19, 1988, when Defendant was 27 years old. The Court of Appeals summarized the material
facts in an opinion affirming Defendant’s convictions:
The Raley Incident: On March 30, 1988, complainant Raley parked on the
bottom level of the parking garage at 3251 Prospect Street, N.W. Appellant had
worked as a parking attendant there some years previously. She saw appellant
walking along the far wall of the garage and then enter the stairwell. She waited a
few minutes and then entered the stairwell. As she approached the third door
1 Defendant filed his Supplement Motion for Reduce Sentence and Compassionate Release (Def.
Pro Se Mot. I) on July 30, 2020, and his Pro Se Motion to Reduce and Compassionate Release
(Def. Pro Se Mot. II) on August 27, 2020. Notwithstanding its title, the “Supplement Motion”
initiated these compassionate release proceedings. The parties filed the following additional
papers in support of, or in opposition to, the original motion: Defendant’s Supplement to
Compassionate Release Motion (Def. Supp’l Mot.), filed September 16, 2020; the Government’s
Opposition to Defendant’s Motion (Gov’t Opp.), filed October 6, 2020; the Government’s
Supplement to Notify Court of Updated CDC Guidance, filed October 20, 2020; Defendant’s Pro
Se Motion to Appoint Counsel (Def. Pro Se Mot. Ill), filed October 26, 2020; Defendant’s Reply
to Government’s Opposition (Def. Reply), filed October 27, 2020; Defendant’s Notice of
Amended CDC Report on Obesity, filed October 31, 2020; Defendant’s Second Supplemental
Motion for Compassionate Release, filed November 9, 2020 (Def. Supp 1 Mot. II); and the
Government’s Opposition to Defendant’s Second Supplemental Motion, filed November 19, 2020
(Gov’t Opp. II).

leading to the stairwell, appellant stood there holding a gun in her face. He told her
to lie face down as he removed cash and her Automatic Teller Machine (“ATM”)
card from her purse, and obtained her personal identification number for use of the
card. He then raped her, took her jewelry, told her to count to a hundred, and
departed. She obeyed his instructions, and then fled for help. Appellant was filmed
using Raley’s ATM card at two banks.
The Wortman Incident: On April 19, 1988, complainant Wortman was
approached by appellant wearing a cap and glasses with a gun as she descended the
stairwell to the bottom level of the parking garage at 1225 Connecticut Avenue,
N.W. Appellant had also worked there as a parking attendant. She was told to lie
on the ground. Appellant put a gun to her head and asked for her bank number. She
said that she did not have an ATM card. She did have a VISA card which was stolen
by appellant. He then fled. Ms. Coalter, a concierge in the building, had seen
appellant around noon that day and then again on the elevator heading toward the
basement minutes before Wortman was accosted. Appellant was wearing a baseball
cap and glasses. Coalter identified appellant from a line-up photograph and at trial.
On the same day as the robbery, seven attempts were made to withdraw money
using the VISA card, but no photographs were taken.
The Butler Incident: On May 8, 1988, a Sunday, complainant Butler was
sitting in her car near the intersection of Connecticut Avenue and N Street, N.W.,
looking at a map. She was approached by a man who, according to her testimony,
“looked very much like” the appellant. Appellant asked her something about her
car and then, noticing that Butler was looking at a map, gave her directions. He told
her of a short-cut down an alley and offered to show it to her if she would give him
a ride down the alley. Butler testified that she thought appellant was a security
guard.
Once in the alley, appellant pulled a gun out of his jacket and pointed it at
Butler. He told her to drive to the end of the alley which was in fact a dead end. He
took fifty dollars and her ATM card from her purse and obtained her personal
identification number for the card's use. Appellant then went around to the driver’s
side of the car and forced Butler to perform oral sodomy. He then ordered her to
get out of the car and to lie face down across the hood as he raped her. Appellant
then told her to get back in the car and wait for him as he left with her keys. Butler
retrieved a spare key from her purse and drove herself to the George Washington
Hospital emergency room. Appellant was filmed using Butler's ATM card to
withdraw money from two separate bank cash machines.
The Fest Incident: On May 19, 1988, Dawn Fest was living with her fiance
at 3251 Prospect St., N.W. She usually helped her fiance, who worked for the
Washington Post Company, deliver papers in the morning and was expected to do
so the morning of May 19. On that morning between six and seven o’clock,
Alphonso Soriano, the maintenance man in the parking garage at 3251 Prospect,
2

saw appellant outside of the garage, holding a “two-way radio.” Soriano knew
appellant when appellant was employed as an attendant in the garage.
The nude body of Dawn Fest was found the next day in the trunk of her
fiance’s Volvo in the 4400 block of Hunt Place, N.E., approximately a block from
appellant’s girlfriend’s house where he was arrested. The cause of death was two
close range gunshot wounds to the head. On May 19, appellant was photographed
by a surveillance camera at a bank attempting to use Fest’s ATM card.
Westv. United States, 599 A.2d 788, 789-90 (D.C. 1991).
A jury convicted Defendant of one count of first degree murder while armed, two counts
of felony murder while armed, three counts of armed kidnapping, two counts of armed rape, three
counts of armed robbery, one count of sodomy, one count of carrying a pistol without a license,
one count of possession of an unregistered firearm, two counts of first degree theft, one count of
second degree theft, and one count of attempted second degree theft. Judgement and Commitment
Order (Sept. 7, 1989). The Court imposed a sentence that included incarceration for 81 years to
life. Id. Defendant appealed his convictions, and the Court of Appeals affirmed the trial court’s
convictions as to all but the two felony murder convictions, which it vacated. West, 599 A.2d at
794. Defendant’s total sentence did not change because the sentences for the felony murder
convictions were imposed concurrently to all other sentences. Judgement and Commitment Order
(Sept. 7, 1989).
Defendant has filed multiple pro se post-conviction motions, all of which have been denied
by the Court. He is eligible for parole on October 24, 2051, at the earliest. Gov’t Opp., Ex. 1 at
2.
On July 30, 2020, Defendant initiated these proceedings for compassionate release under
D.C. Code § 24-403.04. The Court appointed counsel to assist Defendant with the litigation, and

3

“ on September 16, 2020, Defendant, through counsel, filed a Supplemental Motion for Release
from Detention. The parties’ subsequent filings are listed in Footnote 1, supra.
11.

Legal Framework
As noted above, Defendant seeks relief pursuant to D.C. Code § 24-403.04

(“compassionate release”).

The District of Columbia’s compassionate release law became

effective on April 10, 2020, as part of the COVTD-19 Response Supplemental Emergency
Amendment Act of 2020, and was extended on August 19, 2020, pursuant to the Coronavirus
Support Second Emergency Act of 2020. It provides certain grounds for reducing or otherwise
modifying a sentence:
(a) Notwithstanding any other provision of law, the court may modify a term of
imprisonment imposed upon a defendant if it determines the defendant is not a danger to
the safety of any other person or the community, pursuant to the factors to be considered
in 18 U.S.C. §§ 3142(g) and 3553(a) and evidence of the defendant's rehabilitation while
incarcerated, and:
(1) The defendant has a terminal illness, which means a disease or condition with
an end-of-life trajectory;
(2) The defendant is 60 years of age or older and has served at least 25 years in
prison; or
(3) Other extraordinary and compelling reasons warrant such a modification,
including:
(A) A debilitating medical condition involving an incurable, progressive illness, or
a debilitating injury from which the defendant will not recover;
(B) Elderly age, defined as a defendant who:
(i) Is 60 years of age or older;
(ii) Has served at least 20 years in prison or has served the greater of 10
years or 75% of his or her sentence; and

4

(iii) Suffers from a chronic or serious medical condition related to the aging
process or that causes an acute vulnerability to severe medical
complications or death as a result of COVID-19;
(C) Death or incapacitation of the family member caregiver of the defendant’s
children; or
(D) Incapacitation of a spouse or a domestic partner when the defendant would be
the only available caregiver for the spouse or domestic partner.
D.C. Code § 24-403.04(a).
The statute requires an evaluation of dangerousness according to criteria set out in two
provisions of federal law, 18 U.S.C. §§ 3142(g) and 3553(a). Under 18 U.S.C. § 3142(g), the
Court must consider the following:
(1) The nature and circumstances of the offense charged, including whether the
offense is a crime of violence, a violation of section 1591, a Federal crime of
terrorism, or involves a minor victim or a controlled substance, firearm,
explosive, or destructive device;
(2) The weight of the evidence against the person;
(3) The history and characteristics of the person, including(A)The person’s character, physical and mental condition, family ties,
employment, financial resources, length of residence in the community,
community ties, past conduct, history relating to drug or alcohol abuse,
criminal history, and record concerning appearance at court
proceedings; and
(B) Whether, at the time of the current offense or arrest, the person was on
probation, on parole, or on other release pending trial, sentencing,
appeal, or completion of sentence for an offense under Federal, State, or
local law; and
(4) The nature and seriousness of the danger to any person or the community that
would be posed by the person’s release...
Under 18 U.S.C § 3553(a)(l )-(7), the Court must analyze “the nature and circumstances of
the offense and the history and characteristics of the defendant;” the goals in imposing the
5

sentence; the available sentencing options; the sentencing ranges and policy statements generated
by the Sentencing Commission; the avoidance of disparity in sentencing; and the need to provide
restitution to victims.
The compassionate release statute does not address burdens of proof, but the Court
concludes that Defendant, as the moving party, must prove his eligibility for release by a
preponderance of the evidence. The preponderance of the evidence standard is generally applied
in civil contexts, and it is also used in the court’s determination of future dangerousness in requests
for release by persons found not guilty by reason of insanity. See Robertson v. United States, 961
A.2d 1092, 1097 (D.C. 2008); United States v. Ecker, 13 CR 173, 543 F.2d 178, 187-88 (D.C. Cir.
1976) (requiring the district court to make an “affirmative finding that it is at least more probable
than not” that the patient will not be violently dangerous in the future). Federal courts have also
applied this standard when considering motions for compassionate release and sentencing
reduction. See, e.g.. United States v. Evans, No. 13-173, 2020 U.S. Dist. LEXIS 193430, at *5
(W.D. Pa. Oct. 20, 2020) (“[Defendant] bears the burden of proof by a preponderance of the
evidence.”) (citation omitted); United States v. Aruda, No. 14-cr-00577, 2020 U.S. Dist. LEXIS
126034, at *4-5 (Haw. D. Ct. July 17, 2020) (citations omitted) (“The inmate bears the burden of
establishing the requirements for a sentence reduction by a preponderance of the evidence.”). This
Court finds that, had the legislature intended for another burden of proof to apply to the elements
of the compassionate release statute, it would have so stated.
As to the circumstances that might warrant an exercise of “compassion,” the local statute
offers two specific examples - (1) a terminal illness, and (2) age over sixty plus at least twentyfive years served - and then a third option covering “Other extraordinary and compelling reasons.”
The statute also lists four specific situations deemed “extraordinary and compelling”: a debilitating
6

medical condition; “elderly age,” broadly defined; death or incapacitation of defendant s child s
caregiver; and incapacitation of the caregiver for defendant’s spouse or domestic partner. The
statute does not state whether these four situations are intended to be an exhaustive list of
“extraordinary and compelling reasons” or merely illustrative. There is no indication that the four
examples are intended to be exclusive.
The phrase “other extraordinary and compelling reasons” also appears in the federal
compassionate release statute, 18 U.S.C. § 3582(c)(l)(A)(i), but there it appears without a list of
examples and has generally been construed as a catch-all.

See United States v. Andrews,

No. 05-280-02, 2020 U.S. Dist. LEXIS 149514, at *9 (E.D. Pa. Aug. 19, 2020) (“Many district
courts have now weighed in on this question, and they overwhelmingly conclude that a court can
make an independent determination of what constitutes extraordinary and compelling reasons,” at
least in the absence of a contrary policy statement by the Bureau of Prisons).
Construing the phrase “other extraordinary and compelling reasons” in the local statute as
a catch-all is also consistent with the legislative history. See Twenty-Seventh Legislative Meeting
Before

the

D.C.

Council,

Period

23

at

48:14

http://video.oct.dc.gov/VOD/DCC/2020_04/04_07_20_COW.html

(D.C.

Apr.

7,

2020),

(“Statement

of

Councilmember Allen”) (discussion of COVID-19 Response Supplemental Emergency
Amendment Act of 2020, B23-0733) (the local statute is “modeled after our federal program” for
compassionate release).

For these reasons, the Court construes the local statute s list of

“extraordinary and compelling reasons” as illustrative of the circumstances that might form the
basis for relief, rather than as an exhaustive catalogue of such grounds. The Government does not
take a contrary position in its Opposition and, in fact, apparently concedes the point. See Gov’t
Opp. at 9 (“[T]he government recognizes that Subsection (a)(3) uses the word ‘including’ to
7

the list was intended to be non-exhaustive.”)
The compassionate release statute does not limit the extent to which a sentence can be
modified once a judge has made the requisite findings. In this case, the Court sentenced Defendant
under a mandatory minimum provision requiring Defendant to serve at least fifty years. Judgement
and Commitment Order (Sept. 7, 1989).
111.

Analysis
A court granting compassionate release must find that: (i) the defendant “is not a danger to J, -

i

the safety of any other person or the community,” D.C. Code § 24-40.04(a); and (ii) the defendant

\

is terminally ill or is at least sixty years old and has served at least twenty-five years in prison, or
that “[ojther extraordinary and compelling reasons warrant such a [sentence] modification.” Id. J
§ 24-40.04(a)(l-3).
Notwithstanding his medical challenges2 and the serious additional risk he currently faces
because of the COVID-19 pandemic,3 Defendant has not shown that he no longer presents a danger
to other persons or the community. He is thus not eligible for release under the compassionate
release statute.

2 Defendant reports that he has vascular dementia (or cerebrovascular disease), hypertension,
obesity, and advanced aging. Def. Supp’l Mot. at 3. He also had a heart attack on October 26,
2020, and was hospitalized for two days during the pendency of this compassionate release motion.
Def. SuppT Mot. Hat 1. The government, having initially disputed the seriousness of Defendant’s
medical condition, now concedes that Defendant’s age and medical conditions would satisfy the
“extraordinary and compelling reasons” criterion for release. Gov’t Opp. II at 1-2.
3 The Court recognizes these risks and acknowledges the dangerous spread of the pandemic in the
U.S. prison population. See https://www.themarshallproject.org/2020/05/01/a-state-by-statelook-at-coronavirus-in-prisons.
8

In assessing the danger that Defendant poses to any other person or the community, the"
Court considered the requirements of D.C. Code § 24-403.04(a), the factors listed in the pertinent
federal statutes, and information bearing on Defendant’s rehabilitation. While not all factors set
forth in 18 U.S.C. §§ 3142(g) and 3553(a) point to a finding of continued dangerousness, the
information presented, in the aggregate, fails to prove that Defendant no longer poses a danger to
the safety of any other person or the community at large.
Defendant had no criminal history before he committed the offenses at issue in this case.
Def. Supp’l Mot. at 5-6. Nevertheless, the Government argues that Defendant’s offenses, the
lengths of the sentences imposed at the time, and Defendant’s disciplinary record while
incarcerated weigh heavily against his release on grounds of dangerousness. Gov’t Opp. at 13-14.
Defendant’scrimes are indeed themselves some evidence of continued dangerousness. He
caused the death of one person and injury to three others, permanently scarring the surviving
victims, family members, and the community. As a part of the current litigation, the government
obtained a victim impact statement from one of the victims, Ms. Wortman, who stated that she
opposes Defendant’s early release and believes he remains dangerous to the community. Gov’t
Opp. at 14. The government also received input from to three family members of Ms. Fest, the
victim of the murder committed by Defendant on May 19, 1988; all oppose Defendant’s early
release. Id. At the time of sentencing, the Court received 140 letters from friends and family
members of the victim expressing their anguish and describing their hopes for ajust sentence. Id.,
Ex. 6. The sufficiency of the evidence against Defendant is not in doubt; the convictions were
affirmed on appeal as to all except two duplicative felony murder charges. Defendant’s postconviction motions have so far been unsuccessful. He has not shown that his lengthy original
sentence was unreasonable or unusual.
9

!

over thirty-two years ago, when he was twenty-seven years old; he is a middle-aged man of fiftynine today. Offenders who are older at the time of release are statistically less likely to recidivate
compared with offenders who are released when young.4 Even so, Defendant was an adult when
he committed the offenses in this case. His escalating acts of violence - from robbery to rape to
murder, in quick succession - demonstrated a shocking and inexplicable disregard for others’ pain,
and they cannot easily be ascribed to youthful immaturity or shortsighted impulse.
The crimes underlying Defendant’s incarceration are among the most heinous that can be
committed against individuals, as reflected in his eighty-one-year-to-life aggregate sentence, as
well as his mandatory minimum sentence of fifty years. Judgement and Commitment Order (Sept.
^7, 1989). The Court understands that the BOP now categorizes Defendant as presenting a low risk
/of recidivism. Gov’t Opp. at 12. The BOP projection and the rates of recidivism among older
adults are certainly points in Defendant’s favor, but they are offset by the apparent randomness of
the crimes and the increasing brutality of the incidents over the short period in which they occurred.
Put another way, to the extent Defendant does not appear dangerous today, the Court must consider
the disconcerting fact that the same was true in 1988.5

4 See, e.g., United States v. Pitt, No. l:97-cr-108-01, 2020 U.S. Dist. LEXIS 144280, at *11-12
(M.D. Penn. Aug. 12, 2020)
5 In his original motion, Defendant ascribes his sudden, violent behavior to a dependence on illegal
drugs. Def. Supp’l Mot. At 6. The explanation is plausible, but in the absence of further
information the Court cannot find that drug dependency alone led to Defendant’s brutal crimes.
10

disciplinary infractions and none involving assaultive conduct or possession of weapons. Def.
Supp’l Mot., Ex. C.6
The Court accords considerable weight to Defendant’s maintaining personal relationships
while incarcerated, and the support various individuals have promised Defendant upon his release.
Defendant remains close to his sister, Lisa West, and a family friend he refers to as his “play
sister,” Thelma Shabaz. Def. SuppT Mot. at 8. Ms. West promises to provide financial support to
Defendant until he can get a job and has suggested that he reside in her home in the District of
Columbia. Id. Defendant also intends to provide daily care for Ms. Shabaz, who is in poor health
and relies on the assistance of others to take care of her needs. Id. Though he does not have a job
offer as of the date of this order, Defendant plans on contacting the Mayor’s Office on Returning
Citizen Affairs (MORCA) for help securing employment and accessing social services. Id. The
Court credits the sincerity of Defendant’s assertion that he cares deeply about his family, as well
as his family members’ offers of assistance. Defendant’s efforts to remain connected to his loved

6 The record includes information about a 2016 incident that the government argues should be
considered relevant to the issue of dangerousness. According to his BOP disciplinary records
submitted by the government, Defendant told a correctional officer that she “shouldn’t be cold”
because she was “sojugun tMt^’ and pointed to his own chest. Gov’t Opp. at 13, Ex. 5 at 2. .
Though Defendant disputed making a sexual gesture, the incident as described in the Incident
Report was adjudicated by the Discipline Hearing Officer and affirmed by the Regional
Administrative Remedy Office of the BOP. On November 20, 2020, Defendant filed a Motion to
Exclude BOP Documentation Not Previously Shared with Defense. Defendant contends that the
government did not provide him timely copies of Government’s Exhibit 5, filed with its Opposition
of October 6, 2020, or Government’s Exhibit 10, filed with its Opposition of November 19, 2020,
despite Defendant’s request for his complete BOP file. The government has not filed a response
to Defendant’s Motion to Exclude, though the time to do so has not elapsed. Under the
circumstances, in the interest of fairness and efficiency, the Court notes that it reaches its decision
in this case without considering the incident at issue. If considered part of the record, the infraction
would indeed weigh against a finding of rehabilitation and lack of dangerousness.
11

ones, and his plan to be financially stable upon release, are some ol the strongest evidence that Ills
release would not endanger the community.
D.C. Code § 24-403.04(a) also requires the Court to consider “evidence of the defendant’s
rehabilitation while incarcerated” when evaluating his dangerousness.

Defendant’s papers

describe efforts he has made to improve his wellbeing and post-release prospects: he has completed
over 750 hours of educational and other programming, and participated in group therapy sessions
that address anger management and conflict resolution. Def. Supp’l Mot. at 6-7, Ex. D. His
coursework includes the Challenge Program, which addresses addiction and mental illness and
teaches healthy coping mechanisms. Def. Reply at 10. Defendant has also expressed deep remorse
for his actions and has confronted the implications of his actions through therapy and worship. Id.
at 7. He has demonstrated a sincere commitment to his own rehabilitation. The government credits
Defendant’s efforts but argues that Defendant’s failure to participate in sex offender treatment
demonstrates that these efforts are insufficient to show he no longer poses a danger to the
community. Gov’t Opp. at 13. The Court agrees that an ideal slate of programming for Defendant
would include sex offender-specific courses or therapy. Such programming is not available at
every BOP facility, however, and has not been offered at the facilltTeswhere Defendant has been
incarcerated. Def. Reply at 10.
Finally, Defendant’s original sentence, and the remaining time on his sentence, weigh
against his release. At the time of Defendant’s conviction, the mandatory minimum sentence for
his offenses was fifty years of incarceration, and the Court imposed a sentence of eighty-one years
to life. Judgement and Commitment Order (Sept. 7, 1989). As of August 4, 2020, Defendant had
served thirty-two years and two months of his sentence, or forty percent of his full term; as of the
date of this order, at least three more months will have elapsed. Gov’t Opp., Ex. 1. He is not
12

Nothing in the record convinces the Court that the original sentence was improper, unduly harsh,
or disproportionately long compared to sentences imposed on similarly-situated defendants.
Moreover, even assuming Defendant receives all good time he has earned to date (438 days, ,__
Woi>x

t3fiP
according to Defendant’s Reply, Exhibit F), he remains ineligible for earlier release for three
decades.

His remaining sentence, and its original appropriateness, weigh against releasing

Defendant today.
Health concerns alone cannot establish eligibility for compassionate release; a defendant
must first prove he or she is not a danger to the safety of any other person or the community. In
this case. Defendant’s health is indisputably compromised, but the record does not show that he is
too infirm to re-offend. In fact, Defendant has drawn the Court’s attention to his food service work
assignment (Def. Supp’l Mot. at 7) and his plans to care for Ms. Shabaz if he is released (Id. at 8).
This suggests he is still capable of accomplishing physically-demanding tasks and is not immobile
or incapacitated. If his recent health challenges have resulted in significant long-term limitations
on his mobility, strength, or dexterity, those changes are not noted in his recent filings.

Defendant committed a series of violent crimes in 1988 and received a sentence
commensurate with the significance of the offenses.

While incarcerated, he has generally

comported himself well, made genuine rehabilitative efforts, and maintained important
connections to family and friends. He has not proven that he is no longer a danger to other persons
or the community, however, and for that reason his request for compassionate release is denied.

13

A, •

it:

Conclusion
For the reasons stated above, the Court denies Defendant’s Motion for Compassionate

Release.
Accordingly, it is hereby
ORDERED that Defendant Ronald West’s Supplemental Motion for Compassionate
Release, filed September 16, 2020, and re-filed on October 21,2020, is DENIED; it is further
ORDERED that Defendant Ronald West’s Pro Se Supplement Motion for Reduce
Sentence and Compassionate Release, filed July 30, 2020, Pro Se Motion to Reduce and
Compassionate Release, filed August 27, 2020, and Pro Se Motion to Appoint Counsel (Def. Pro
Se Mot. TIT), filed October 26, 2020, are DENIED; it is further
ORDERED that Defendant’s Motion to Exclude BOP Documentation Not Previously
Shared with Defense, filed November 20, 2020, is DENIED AS MOOT.
SO ORDERED.
DATED: November 23, 2020
STEVEN M WELLNER
Associate Judge
By CaseFileXpress:
MARGARET CHRISS
JOSEPH DRUMMEY
USAO- Special Proceedings Division
SARA KOPECKI
Defendant’s Counsel

;

14

Additional material
from this filing is
available in the
Clerk's Office.

